      Department of Homeland Security



       The State of Oklahoma’s Management of
        State Homeland Security Program and
        Urban Areas Security Initiative Grants
             Awarded During Fiscal Years
                    2006 through 2008




OIG-12-11                                   November 2011

                                                                     Office
                                                                     Offceo/Inspector
                                                                            of InspectorGellf1ra
                                                                                        Generalf

                                                                     U.S. Department
                                                                     u.s. Department of of Homeland
                                                                                           HomelandSecllrlty
                                                                                                    Security
                                                                     Washington,DC
                                                                     Washington.     DC 20528
                                                                                        20528




                                                         ta... . Homeland
                                                         ~" ~l   Security
                           NOV2120fl
                           NOV -, 12011

                                               Preface

The    Department
The Department of          Homeland
                        of Homel       Security (DHS)
                                  and Security  (DHS) Office
                                                        Office ofInspector
                                                                ofInspector General
                                                                             General (OIG) was
established        by the Homeland
established by the Homeland          Security  Act of 2002
                                                      2002  (Public  Law   107-296)
                                                                           107-296) by amendment
to the
to  the Inspector
          Inspector General
                        General Act
                                Act of
                                     of 1978.
                                        1978. This is one of
                                                           of a series of audit, inspection, and
                                                                                             and
special
s pecial    reports   prepared  as part
                                   part of our oversight responsibilities to promote  economy,
efficiency,
effic  iency, and and effectiveness within the Department.

This report
This report addresses
            addresses the
                       the strengths
                           strengths and
                                       and weaknesses of thethe State of
                                                                       of Oklahoma's
                                                                          Oklahoma's
management of State Homeland Security Program and Urban Areas Security Initiative
       awarded during
grants awarded  during fiscal
                        fiscal years
                               years 2006
                                       2006 through
                                              through 2008.
                                                       2008. We
                                                              We contracted with the
independent public accowlting
                    accounting firm
                                  firm Regis
                                        Regis && Associates,
                                                   Associates, PC
                                                               PC to
                                                                   to perform
                                                                       perform thethe audit.
                                                                                      audit. The
contract required that Regis && Associates, PC perform its audit according to generally
accepted  government   auditing  standards. Regis
accepted government auditing standards.        Regis && Associates,
                                                        Associates, PC's
                                                                      PC ' sreport
                                                                             report identifies
                                                                                     identifies two
                                                                                                 two
reportable conditions where the State of Oklahoma's
                                             Oklahoma's mamigement of the grantfunds
                                                          manágement      of  the grant  funds
could be improved, resulting in a recommendation
                                     recommendati on addressed to the Assistant
Administrator, Grant Programs Directorate,
                                  Directorate, Federal
                                                  Federal Emergency
                                                          Emergency Management
                                                                        Management Agency.
                                                                                        Agency.
Regis &
      & Associates, PC is responsible for  for the attached auditor's
                                                             auditor' sreport
                                                                        report dated
                                                                                datedOctober
                                                                                       October12, 12,
2011, and the conclusions
              conclusions   expressed   in  the report.
                                         in the report.

The recommendation herein has been developed to the best        best knowledge available to our  our
office, and has been discussed in draft with those responsible
                                                         responsible forfor implementation.
                                                                            implementation. We  We
trust
 trust this report will
                   wil result
                        resu lt in
                                 in more
                                    more effective, eft1cient.
                                                    effcient, and
                                                               and economical
                                                                    economical operations.
                                                                                  operations. We We
express our appreciation to   to all
                                  all of those who
                                      ofthuse  who contributed
                                                   contributed toto the
                                                                     the preparation
                                                                         preparation of
                                                                                     of this
                                                                                         this report.
                                                                                               report.

                                            ~tYM~~¿
                                            {h,,-<?:lrJ:J:,.J!,
                                           Ane
                                           AnneL.L.Richards
                                                    Richards
                                           Assistant
                                           Assistant Inspector
                                                     lnspector General
                                                               General for
                                                                        for Audits
                                                                            Audits
   MANAGEMENT CONSULTANTS &

  CERTIFIED PUBLIC ACCOUNTANTS





October 12, 2011


Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W., Building 410
Washington, DC 20528

Dear Ms. Richards,

Regis & Associates, PC performed an audit of the State of Oklahoma’s management of
the Department of Homeland Security’s State Homeland Security Program and Urban
Areas Security Initiative grants for fiscal years 2006 through 2008. The audit was
performed in accordance with Contract No. TPD-FIG-BPA-07-0014; Task Order 0002
dated September 29, 2009. This report presents the results of the audit and includes a
recommendation to help improve the State’s management of the audited State Homeland
Security Program and Urban Areas Security Initiative grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Oklahoma’s financial statements, or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions or need further assistance, please contact us at (202) 296-7101.


Sincerely,



Peter R. Regis, CPA
Partner
Regis & Associates PC




   1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 6 


     Documentation of Performance Data and Monitoring ................................................. 7 

     Recommendation ......................................................................................................... 8 

     Management Comments and Auditors’ Analysis ........................................................ 9 


     Equipment Purchased With Homeland Security Grant Program Funds ...................... 9 

     Management Comments and Auditors’ Analysis ...................................................... 11 



Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 12 

     Appendix B:           Management Comments to the Draft Report ..................................... 15 

     Appendix C:           Organization Chart ............................................................................. 19 

     Appendix D:           Report Distribution ............................................................................ 20 


Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    fiscal year           

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Regis & Associates, PC completed an audit of the State of
                      Oklahoma’s management of State Homeland Security Program and
                      Urban Areas Security Initiative grants awarded during fiscal years
                      2006 through 2008. The audit objectives were to determine
                      whether the State of Oklahoma distributed and spent Homeland
                      Security Grant Program funds strategically, effectively, and in
                      compliance with laws, regulations, and guidance. The audit
                      included a review of approximately $34.8 million in State
                      Homeland Security Program and Urban Areas Security Initiative
                      grant funds awarded to the State of Oklahoma.

                      Generally, the State of Oklahoma did an efficient and effective job
                      of administering the program requirements in compliance with
                      grant guidance and regulations. Funding was linked to goals in the
                      State Homeland Security Strategy and project-based objectives,
                      which in turn were based on initiatives and needs identified by the
                      Oklahoma Office of Homeland Security. Funds and resources
                      were distributed based on those project-based objectives.
                      Reasonable methodologies were used for assessing threats and
                      vulnerabilities and response capability.

                      However, improvements were needed in the State of Oklahoma’s
                      documentation of performance monitoring and identification of
                      equipment purchased with Department of Homeland Security grant
                      funds. Our recommendation calls for the Federal Emergency
                      Management Agency to require the State of Oklahoma to initiate
                      improvements which, if implemented, should help strengthen
                      program management, performance, and oversight. Written
                      comments to the draft report are incorporated as appropriate and
                      included in their entirety in appendix B.




          The State of Oklahoma’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 1

Background
                    The Homeland Security Grant Program is a federal assistance grant
                    program administered by the U.S. Department of Homeland
                    Security (DHS), Grant Programs Directorate, within the Federal
                    Emergency Management Agency (FEMA). The current Grant
                    Programs Directorate, hereafter referred to as FEMA, began with
                    the Office of Domestic Preparedness, which was transferred from
                    the Department of Justice to DHS in March 2003. The Office of
                    Domestic Preparedness was subsequently consolidated into the
                    Office of State and Local Government Coordination and
                    Preparedness, which, in part, became the Office of Grants and
                    Training, and which subsequently became part of FEMA.

                    Although the grant program was transferred to DHS, applicable
                    Department of Justice grant regulations and legacy systems were
                    still used, as needed, to administer the program. For example,
                    through fiscal year (FY) 2008 the Office of Justice Programs’
                    Grants Management System was used to receive grantee
                    applications and to administer the award and reporting processes.
                    Also, prior to transfer, the State Administrative Agency entered
                    payment data into the Office of Justice Programs’ Phone Activated
                    Paperless Request System, which was a drawdown payment
                    system for grant funds. That payment system was replaced in
                    April 2007 by FEMA’s Payment and Reporting System, which
                    allows grantees to make payment requests and complete and
                    transmit their quarterly Financial Status reports online.

                    Homeland Security Grant Program

                    The Homeland Security Grant Program provides federal funding to
                    help state and local agencies enhance their capabilities to prevent,
                    protect against, respond to, and recover from terrorist attacks,
                    major disasters, and other emergencies. The Homeland Security
                    Grant Program encompasses several interrelated federal grant
                    programs that together fund a range of preparedness activities,
                    including planning, organization, equipment purchase, training,
                    and exercises, as well as management and administrative costs.
                    Depending on the fiscal year, the program included some or all of
                    the following programs:

                    •	 State Homeland Security Program supports the
                       implementation of State Homeland Security Strategies to
                       address the identified planning, organization, equipment,
                       training, and exercise needs to prevent, protect against, respond

        The State of Oklahoma’s Management of State Homeland Security Program and 

     Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                            Page 2

                    to, and recover from acts of terrorism and other catastrophic
                    events.

               •	 Urban Areas Security Initiative Program funds address the
                  unique planning, organization, equipment, training, and
                  exercise needs of high-threat, high-density Urban Areas, and
                  assists them in building an enhanced and sustainable capacity
                  to prevent, protect against, respond to, and recover from acts of
                  terrorism.

               •	 Law Enforcement Terrorism Prevention Program provides
                  resources to law enforcement and public safety communities
                  (working with their private partners) to support critical
                  terrorism prevention activities, including: establishing and
                  enhancing fusion centers and collaborating with non-law
                  enforcement partners, other government agencies, and the
                  private sector.

               •	 Citizen Corps Program mission is to bring community and
                  government leaders together to coordinate the involvement of
                  community members and organizations in emergency
                  preparedness, planning, mitigation, response, and recovery.

               •	 Metropolitan Medical Response System Program funds
                  support designated jurisdictions to further enhance and sustain
                  a regionally integrated, systematic mass casualty incident
                  preparedness program that enables a response during the first
                  crucial hours of an incident. The program prepares
                  jurisdictions for response to all-hazards mass casualty
                  incidents, including chemical, biological, radiological, nuclear,
                  and explosives terrorism, epidemic disease outbreaks, natural
                  disasters, and large-scale hazardous material incidents.

               State Administrative Agency

               State governors appoint a State Administrative Agency to
               administer the Homeland Security Grant Program. The State
               Administrative Agency is responsible for managing the grant
               programs in accordance with established federal guidelines. The
               State Administrative Agency is also responsible for allocating
               funds to local, regional, and other state government agencies. The
               Oklahoma Office of Homeland Security is the State Administrative
               Agency designated to provide administrative oversight for the
               Homeland Security Grant Program. The Oklahoma Homeland
               Security Director is the head of the Oklahoma Office of Homeland

   The State of Oklahoma’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 3

               Security, and is the Homeland Security Advisor to the Governor.
               The Oklahoma Office of Homeland Security is responsible for
               formulating the State Homeland Security Strategy and setting
               resulting policy, with the Governor’s approval, for the State of
               Oklahoma.

               The Oklahoma Office of Homeland Security was created by the
               Oklahoma Homeland Security Act (Act) in 2004. The Act tasked
               the Oklahoma Homeland Security Director with developing and
               coordinating the implementation of a statewide homeland security
               strategy. The Act directed that the homeland security strategy
               address specific objectives, such as reducing the State’s
               vulnerability to terrorist attacks. The Act also provided for the
               creation of regional advisory councils with the following duties:
               (1) assessing and documenting the needs of the region related to
               homeland security, (2) coordinating and cooperating with the
               Oklahoma Office of Homeland Security to achieve the strategic
               objectives prescribed in the Act, and (3) other duties assigned by
               the Homeland Security Director.

               For homeland security purposes, the State of Oklahoma (State) is
               divided into eight regions—each with a 15-member Council. The
               Homeland Security Director appoints members of each Council
               from 15 specific disciplines specified in the Act (for example a
               paid fire chief, a volunteer fire chief, a county sheriff, an
               emergency manager etc.) based on recommendations the Director
               receives from associations representing the respective disciplines.

               Oklahoma Executive Order 2005-6 tasked the Oklahoma
               Homeland Security Director with coordinating homeland security
               efforts for the entire state and designated the Oklahoma Homeland
               Security Director as the single point of contact for all homeland
               security efforts within the State. The Oklahoma Office of
               Homeland Security’s organizational structure is shown in
               appendix C of this report.

               In addition, the Oklahoma Department of Emergency Management
               is responsible for coordinating the State of Oklahoma’s response to
               any major emergency or disaster, supporting local governments as
               needed or requested, and coordinating assistance with FEMA or
               other partners. The Oklahoma Department of Emergency
               Management works closely with the Oklahoma Office of
               Homeland Security in areas such as planning and identifying
               hazards.


   The State of Oklahoma’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 4

               Grant Funding

               FEMA awarded the State approximately $46.9 million in
               Homeland Security Grant Program funds during FYs 2006 through
               2008. Of this amount, $21.2 million was in State Homeland
               Security Program grants and $13.5 million in Urban Areas Security
               Initiative grants.

               The State used the grant funds primarily to better prepare the State
               in the areas of terrorism prevention and protection, and all-hazards
               response and recovery. Most of the funding was used to provide
               first responders with the equipment, training, and exercises
               necessary to safely respond to and manage all-hazard incidents.
               Table 1 identifies a breakdown of the grant funds by funded
               activity and fiscal year. Note that not all funded activities were
               part of the Homeland Security Grant Program during each of the
               fiscal years.

                                                   Table 1
                                            Oklahoma
                              Homeland Security Grant Program Awards
                                  Fiscal Years 2006 through 2008

                  Funded Activity       FY 2006        FY 2007       FY 2008             Total

                State Homeland
                                        $8,480,000    $5,070,000     $7,690,000 $21,240,000
                Security Program
                Urban Areas
                                         4,102,000      4,780,000     4,637,000     13,519,000
                Security Initiative
                Law Enforcement
                                                                      Not
                Terrorism                6,170,000      3,620,000                    9,790,000
                                                                    Applicable
                Prevention Program
                Citizen Corps
                                           280,000        212,000       214,000           706,000
                Program
                Metropolitan
                Medical Response           465,000        516,000       642,000      1,623,000
                System Program
                Total                  $19,497,000 $14,198,000 $13,183,000 $46,878,000


               Regis & Associates, PC completed an audit of the State of
               Oklahoma’s management of DHS’ State Homeland Security
               Program and Urban Areas Security Initiative grants awarded
               during FYs 2006 through 2008. The objectives of this audit were
               to determine whether the State distributed and spent Homeland
               Security Grant Program funds strategically, effectively, and in
               compliance with laws, regulations, and guidance.

   The State of Oklahoma’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 5

                     Nine researchable questions provided by DHS Office of Inspector
                     General (OIG) established the framework for the audit. These
                     researchable questions were related to the State Administrative
                     Agency’s planning, management, and evaluation of grant
                     activities. Appendix A provides additional details on the purpose,
                     scope, and methodology of this audit, including the nine
                     researchable questions.

Results of Audit
     State Grants Management Practices Were Generally Effective,
     But Some Improvements Needed
            Generally, the State did an efficient job of managing the $21.2 million in
            State Homeland Security Program funds and $13.5 million in Urban Areas
            Security Initiative funds it received during FYs 2006 through 2008.
            Funding was linked to the plans and core priorities identified by
            Oklahoma’s Office of Homeland Security, and funds and resources were
            distributed based on those priorities. The core priorities, as well as
            projects for achieving the core priorities, were linked to the State’s
            strategic goals and objectives, which were approved by FEMA.

            As a way of measuring achievement of the strategic goals and objectives,
            the Oklahoma Office of Homeland Security monitored statewide
            initiatives and ensured that planning, training, exercises, interoperability,
            and equipment acquisitions addressed the State’s strategic goals and
            objectives. The State used reasonable methodologies for assessing threats
            through data gathered by the Oklahoma Department of Emergency
            Management and the Fusion Center. The grants were generally
            administered in compliance with applicable laws, regulations, and
            guidance.

            However, improvements were needed in the State’s management of the
            State Homeland Security Program grants in the following areas:

            •	 Recording and maintaining adequate documentation related to
               accomplishment of the goals and objectives outlined in the State’s
               Homeland Security Strategy.
            •	 Ensuring that equipment purchased with DHS grant funds was
               appropriately identified.




         The State of Oklahoma’s Management of State Homeland Security Program and 

      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                             Page 6

Documentation of Performance Data and Monitoring
       The State did not have an adequate system to document and analyze
       performance data related to the accomplishment of the goals and
       objectives outlined in the State of Oklahoma’s Homeland Security
       Strategy, which was approved by FEMA. The Oklahoma Office of
       Homeland Security monitors grantees’ and subgrantees’ homeland
       security activities in support of the State’s strategy; however, data related
       to the progress made for ongoing projects is not always collected at the
       state level and not documented in a manner that would facilitate ongoing
       analysis and review of progress being made. Oklahoma’s Office of
       Homeland Security could not provide documentation, such as meeting
       minutes, review worksheets, checklists, or memoranda, substantiating that
       the reviews were performed for projects under the grants. Also, the State
       did not maintain documentation to support that performance data exists
       and that performance monitoring is being conducted.

       For example, during one of our 28 site visits to various state and local
       agencies in Oklahoma, the Emergency Management Director and former
       Fire Chief described a first-hand experience that clearly demonstrated the
       benefits of interoperability communications put in place as a result of the
       grant funds. The city had requested funding to become part of an
       interoperability project after experiencing uncoordinated efforts among
       firefighters, police, first responders, emergency medical, and other support
       teams responding to a tornado. Benefits of interoperable communications
       were subsequently realized in response to a major wildfire in the area,
       when coordinated efforts to deploy emergency personnel put the fire under
       control.

       Another example was a successful rescue operation for a manhole collapse
       described by a city’s Deputy Chief and Training Officer. The Deputy
       Chief and Training Officer explained how resources from various agencies
       and first responders were mobilized for the rescue operation. The
       mobilization was based on lessons learned from other incidents and
       training previously conducted with the agencies and first responders.

       Without written records and a formal system for recording lessons learned,
       important information may not be available for future reference or for
       evaluation by federal, state, and local agencies. Also, if employees who
       monitor events do not record such information, historical knowledge is
       lost when they leave the agency.

       According to Title 44 of the Code of Federal Regulations, Section 13.40,
       Emergency Management and Assistance - Monitoring and reporting
       program performance, grantees are responsible for managing the day-to-

    The State of Oklahoma’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                        Page 7

      day operations of grant- and subgrant-supported activities. Grantees must
      monitor grant and subgrant supported activities to ensure compliance with
      applicable federal requirements and achievement of performance goals.
      Grantee monitoring must cover each program, function, or activity.

      Furthermore, the January 2006 DHS Financial Management Guide,
      Chapter Four, states that recipients have full responsibility for the conduct
      of the project or activity supported and for the results achieved. The
      Oklahoma Office of Homeland Security must monitor the performance of
      projects to ensure adherence to performance goals, time schedules, or
      other requirements as appropriate to the projects or the terms of the
      agreements. The Oklahoma Office of Homeland Security is responsible
      for monitoring the activities of, and pass-through requirements to, any
      subrecipients.

      If the state does not adequately monitor subgrantee program performance
      and retain evidence of monitoring activities, the state cannot determine if
      program goals are met and assets purchased are used as intended.
      Furthermore, lack of adequate programmatic monitoring prevents the State
      from being able to measure improved preparedness and to ensure that
      optimal progress was accomplished through the use of grant funds. For
      example, the State should be able to measure progress in the following
      areas:

      •	 Equipment - Emergency responders’ capacity to respond with new
         equipment to incidents that pose a threat to homeland security.
      •	 Training - Number of emergency responders who have increased skills
         needed to respond to threats to homeland security and use the new
         equipment properly.
      •	 Exercises - Number of task forces, regions, or emergency responders
         that participated in exercises.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Oklahoma Office of
               Homeland Security to:

               Recommendation #1: Develop and implement policies and
               procedures to document, retain, and utilize the results of
               performance monitoring.




   The State of Oklahoma’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 8

       Management Comments and Auditors’ Analysis
                FEMA concurred with this recommendation, and will request the
                Oklahoma Office of Homeland Security submit a revised
                Homeland Security Grant Program monitoring policy within
                90 days of the receipt of the final report. The policy is to include a
                more formalized and robust method for tracking progress made by
                subgrantees, procedures for documenting the results of
                performance monitoring, and policies for the retention and
                utilization of performance monitoring results.

                Oklahoma Office of Homeland Security officials agreed with the
                recommendation and stated that they intend to increase their efforts
                to improve all aspects of performance monitoring. Oklahoma
                Office of Homeland Security officials stated that they recently
                filled the vacant Regional Response System Coordinator position.
                They also stated that the new coordinator has begun the process
                of visiting each recipient of Regional Response System
                equipment with the intent to document what is working well, what
                is not working, and what is needed to maintain the integrity of the
                Regional Response System. Part of this process will be to
                memorialize the effective uses of Regional Response System
                equipment and lessons learned over the past seven plus years.

                In addition, Oklahoma Office of Homeland Security officials
                indicated that they will amend their regular site monitoring
                procedures to prompt the Oklahoma Office of Homeland Security
                monitoring personnel to explore and document ways in which
                grant-funded expenditures have improved an individual
                subgrantee’s ability to accomplish the goals associated with the
                particular grant.

                The actions proposed by FEMA and the Oklahoma Office of
                Homeland Security meet the intent of the recommendation. If
                properly implemented, the actions identified in the responses
                should address the conditions indentified during the audit. This
                recommendation is considered resolved and open, pending final
                implementation of the proposed corrective actions.

Equipment Purchased with Homeland Security Grant Program
Funds
       At 9 of 28 locations we visited, various items such as interoperable
       equipment, emergency response vehicles, and surveillance cameras were
       not labeled as purchased with Homeland Security Grant Program funds by

    The State of Oklahoma’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                        Page 9

      the Oklahoma Office of Homeland Security. We examined equipment and
      assets purchased with Homeland Security funds to validate their existence
      and proper identification. We obtained a listing of equipment purchased
      with State Homeland Security Program and Urban Areas Security
      Initiative grant funds for each location selected for site visit. At each
      location, we selected a sample from the listing and identified the
      purchased equipment by serial number on the equipment.

      According to Office of Management and Budget Circular A-133,
      Compliance Supplement (March 2009), property tags are required to be
      placed on equipment as part of control activities necessary to provide
      reasonable assurance that proper records are maintained for equipment
      acquired with federal awards, equipment is adequately safeguarded and
      maintained, and disposition or encumbrance of any equipment or real
      property is in accordance with federal requirements. In addition, under the
      terms and special conditions of the Homeland Security Grant Program
      award, the recipient agrees that, when practicable, any equipment
      purchased with grant funding shall be prominently marked as “Purchased
      with funds provided by the U.S. Department of Homeland Security.”

      The Oklahoma Office of Homeland Security did not follow and enforce
      FEMA guidelines to ensure that equipment purchased with Homeland
      Security funds was identified as being purchased with DHS grants. There
      were no policies and procedures in place to ensure that equipment
      purchased with Homeland Security Grant Program funds was properly
      identified. The tagging of grant-funded equipment is necessary to help
      deter theft or unauthorized usage, and to display proper ownership. As a
      result, the State and its subgrantees were not in compliance with FEMA’s
      grant agreement.

      State officials agreed and immediately took steps to address this issue by
      marking all the equipment that had not been previously marked. In
      addition, the Oklahoma Office of Homeland Security revised its Policies
      and Procedures by adding a subsection titled, Equipment Marking. The
      revision states that, to the extent practicable, U.S. Department of
      Homeland Security funded equipment should be marked, “Purchased with
      funding from the Oklahoma Office of Homeland Security with funds
      provided by the U.S. Department of Homeland Security/FEMA.” The
      corrective actions were completed prior to issuance of this report;
      therefore, we considered this finding closed and make no
      recommendation.




   The State of Oklahoma’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 10

      Management Comments and Auditors’ Analysis
               At the exit conference, FEMA officials verbally concurred with the
               finding. Oklahoma Office of Homeland Security officials also
               agreed with the finding at the exit conference. In its written
               response, the Oklahoma Office of Homeland Security
               acknowledged that prior to our fieldwork some of the equipment
               purchased with DHS funding was not appropriately marked as
               having been purchased with FEMA/Department of Homeland
               Security funding. The Oklahoma Office of Homeland Security
               also said that during the course of our fieldwork, it took steps to
               remind its subgrantees of the need to place stickers on DHS-
               funded equipment, where practicable, and provided attachable
               stickers to the subgrantees as needed. It also said that
               verification of markings is now a routine part of its on-site
               monitoring process.




   The State of Oklahoma’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 11

Appendix A
Purpose, Scope, and Methodology

                       The purpose of this audit was to determine whether the State of
                       Oklahoma distributed and spent State Homeland Security Program
                       and Urban Areas Security Initiative Program grant funds
                       strategically, effectively, and in compliance with laws, regulations,
                       and guidance. The goal of this audit was to identify problems and
                       solutions that can help the State of Oklahoma better prepare for
                       and respond to threats, acts of terrorism, and other hazards. The
                       audit further enabled us to answer the following nine researchable
                       questions:

                       •    Were measurable goals developed from plans?
                       •    Do funded plans link all-hazards capabilities to goals?
                       •    Were funds and resources distributed based on goals?
                       •    Does the State accurately measure risk?
                       •    Does the State measure response capabilities?
                       •    Can the State demonstrate improved performance?
                       •    Were grants administered compliantly?
                       •    Did the State monitor grant programs?
                       •    What innovative practices can be used by other states?

                       The scope of the audit included the State Homeland Security
                       Program and Urban Areas Security Initiative awards for FYs 2006,
                       2007, and 2008 as described in the background section of this
                       report.

                       The audit methodology included work at FEMA Headquarters, the
                       Oklahoma Office of Homeland Security, and various subgrantee
                       locations. To achieve our audit objectives we analyzed data,
                       reviewed documentation, and interviewed key state and local
                       officials directly involved in the management and administration of
                       the State of Oklahoma’s Homeland Security Grant Program.

                       In order to determine whether the program grant funds were
                       expended according to grant requirements and State established
                       priorities, we conducted 28 site visits and held discussions with
                       appropriate officials from all eight regions and six state agencies
                       that were awarded State Homeland Security Program and Urban
                       Areas Security Initiative Grants. Agencies visited included:

                       Local Jurisdictions
                       • Comanche Nation
                       • Enid – Chisholm School
                       • Enid – Fire Department
                       • Enid – Emergency Medical Response Unit

           The State of Oklahoma’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 12

Appendix A
Purpose, Scope, and Methodology

                       •	 Lawton – Technical Response Team
                       •	 Lawton – Interoperability System
                       •	 Midwest City Fire Department
                       •	 Muskogee – Regional Response System
                       •	 Muskogee – Emergency Medical Services
                       •	 Norman – Bomb Squad
                       •	 Norman – Response and Rescue Squad
                       •	 Oklahoma City – Emergency Management System
                       •	 Oklahoma City – National Stock Yards
                       •	 Oklahoma City – Public Safety – School Security
                       •	 Oklahoma City – Regional Response
                       •	 Owasso – Interoperability and Emergency Response
                       •	 Seminole Technical Response Team and Emergency Medical
                          Response Unit
                       •	 Tulsa – Interoperability and Emergency Response
                       •	 Tulsa – Urban Search and Rescue
                       •	 Association of Central Oklahoma Governments

                       State Agencies
                       •	 Department of Agriculture – Decontamination Unit
                       •	 Department of Emergency Management
                       •	 Department of Emergency Management – State Emergency
                          Operations Center
                       •	 Department of Public Safety
                       •	 Department of Public Safety – Interoperable Communication
                          Group
                       •	 Department of Public Safety – Oklahoma Highway Patrol
                       •	 Oklahoma Office of Homeland Security – National Incident
                          Management System Compliance Group
                       •	 Oklahoma Office of Homeland Security – Public Outreach
                          Group
                       •	 Oklahoma State Bureau of Investigation – Fusion Center

                       Urban Areas Security Initiative
                       •	 Department of Agriculture – Decontamination Unit
                       •	 Department of Emergency Management – Emergency
                          Operations Center
                       •	 Department of Public Safety
                       •	 Department of Public Safety – Oklahoma Highway Patrol
                       •	 Norman – Response and Rescue Squad
                       •	 Oklahoma State Bureau of Investigation – Fusion Center



           The State of Oklahoma’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 13
Appendix A
Purpose, Scope, and Methodology

                       At each location, we interviewed responsible officials, reviewed
                       documentation supporting the State and subgrantee management of
                       the awarded grant funds (including expenditures for equipment,
                       training, and exercises), and physically inspected some of the
                       equipment procured with the grant funds.

                       We conducted the audit between December 2009 and April 2010,
                       according to Government Auditing Standards as prescribed by the
                       Comptroller General of the United States (Yellow Book-2007
                       Revision). Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions, based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions, based on our
                       audit objectives.

                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the Government Auditing
                       Standards, and included a review and report of program activities
                       with a compliance element. Regis and Associates PC was not
                       engaged to and did not perform a financial statement audit, the
                       objective of which would be to express an opinion on specified
                       elements, accounts, or items. Accordingly, Regis and Associates
                       PC was neither required to review, nor expressed an opinion on,
                       the costs claimed for the grant programs included in the scope of
                       the audit. Had Regis and Associates PC been required to perform
                       additional procedures, or conduct an audit of the financial
                       statements in accordance with generally accepted auditing
                       standards, other matters might have come to our attention that
                       would have been reported. This report relates only to the programs
                       specified and does not extend to any financial statements of the
                       State of Oklahoma.

                       While the audit was performed and the report was prepared under
                       contract, the audit results are being reported by the DHS Office of
                       Inspector General to appropriate FEMA and State of Oklahoma
                       officials.




           The State of Oklahoma’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 14

Appendix B
Management Comments to the Draft Report



                                                                                        t:.s. I)cpartmciltof Homeland Sccurit~·
                                                                                                     Washington. DC 1()472




                                         SEP 1 4 2011


         ME'vlORANDCM FOR:             Anne L. Richards
                                       Assistant Inspector General for Audits
                                       Office of Inspector General
                                                          '::;")
                                                Kaufm\&h-::;>' / . "",,,","~- . .". ~
         FROM:
                                       Director
                                       Oftlce of Policy and Program Analysis

         SUBJECT:                      FEMA's Response to OIG Draft Report, 77u; State o.(Oklahoma 's
                                       Management o/Stafe Homeland 5'ecurity Program Grants AH"ardcd
                                       During Fiscal Years 2006 through 200R


         Thank you for the opportunity for the Federal Emergency Management Agency (FEMA) to
         commcnt on the subject draft report. The findings in the report will be used to stren.brthen the
         effectiveness and efficiency of how we execute and measurc our prof,'fams. We recognize the need to
         continue to improve the process .. including addressing the recommendations raised in this report.
         OUT responses to the recommendations are as follows:

         OIG Recommendation #1: We recommend that the Assistant Administrator. Grant Programs
         Directorate (GPD). require the Director ofthe Oklahoma 0t11ce of Homeland Security to develop
         and implement policies and procedures to document, retain. and utilize the results ofperfoD11allCC
         monitoring.




                a) More t(mnalizcd and robust               fi:)["       progress 1'11adc  suh grantees towards
                   the c01llplclion of projects in order to ensure 1hat the goals and timc1ines of the projects




          The State of Oklahoma’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                         Page 15

Appendix B
Management Comments to the Draft Report




                    sub grantees through the sub award agreement in order to ensure that the state's
                    monitoring is well inftmned on a rq::,'ular and consistent basis.)

                b.) Procedures ft)r documenting the results ofthe prescribed perfoll11anee monitoring,

                c.) Policies for the retention of the results t()Und during the performance monitoring. and

                d.) Policies regarding the utilization of the results gathered through the implementation of
                    the pedonnance monitoring. The results of the perfollnance monitoring may be used to
                    evaluate the progress made towards the completion of programmatic goals and objectives
                    at the state and local level and to inttmn future funding priorities.

         FEMA will work with OKOHS to rcview its newly developed programmatic monitoring protocols to
         ensure programmatic perf0ll11anCe is being adequately tracked by the statc. FEMA believes this
         satis1ies the intent of the recommendation and requests that this recommendation remain rcsolved
         and opcn.

         Again, \ve thank you for the opportunity to review and commcnt on your draft report which contains
         recommendations aimed at improving the efticiency of our agency. Should you have further
         qucstions regarding our response, please do not hesitate to call FEMA's Chief Audit Liaison, Brad
         Sheila, at 202-646-J30S,




          The State of Oklahoma’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                     Page 16

Appendix B
Management Comments to the Draft Report




    KIM EDD CARTER                                                                                                                    MARY FALLIN
       DIRECTOR                                                                                                                       GOV!;RNOR




                                                        STATE OF OKLAHOMA
                                                   OFFICE OF HOMELAND SECURITY



             September 14, 2011

             Mr. Lateef A. Abassi
             Regi s Associates, P.C.
             1400 Eye Street, NW, Suite 425
             Washington, D.C. 20005

             Re: FY 2006-2008 OIG Draft Audit Report dated August 20 II ; State Homeland Security and Urban
             Area Security Grant Programs

             Dear Mr. Abassi:

             Thank you for the opportunity to review and comment on the Office of In spector General (OIG) draft
             audit report. We appreciate the constructive nature of your comments and the professionalism with
             which Regis Associates' staff conducted its business throughout this process.

             We agree with the Reconunendation included in the draft report. OKOHS can and should do a better job
             of documenting performance monitoring activity, and we are committed to improving in this area. A s
             you know, OKOI-IS has historically taken a project based approach to the use of grant flmding. Projects
             with the greatest threatlvulnerabil ity receive 1110St of the funding. Our projects fit within one of nine
             program areas tracking the investment justification framework established by FEMA/ DHS. Program
             Managers are assigned to each project and are responsible for monitoring performance of individual
             projects (grants) with the objective of gaining a better understanding of overall statewide progrcss that
             will ultimately allow us to achieve a higher level ofprepru·edness.

             Based on your input we intend to increase our effol1s to improve all aspects of performance monitoring.
             For example, we have recently filled our vacant Regional Response System (RRS) Coordinator position.
             This individual has begun the process of visitin g each recipient ofRRS equipment with intent to
             document what is working well , what is not workin g, and what is needed to maintain the integrity of the
             Regiona l Response System . l'a11 of th is process will bc t o mcmorialize the effectivc uses ofRRS
             equ ipment and lesson learned         0   er the past seven plus ears.

             Each KOHS ·ub-aw l'dec is I.:urrcnl l I\:qui l -0 to pro ide pcri odic lccdbac k Lo our of'llec in the lorlll of
               Quarte rly Prog ro " Re:;p(Jrt (Q R). a 'cd on 111 -
             II:                                                      Rccomm -ndati 11, it i our intent t In di f lire
             current OKOIl Qmmerly tarns Reporr fonnat to include addi1iona l que tion s about the spec ifi c u e· or
             grant fun ded equipment during the prior calendar quarter. We will also includo a request mat an aftor
             action r porls created in conncction \ ilh usc of such cq uipllwltt (w hether reltllecilO an exerci e o r an
             a tual ev Il l) b aUachecJ to h QSR.


             P.O. 13 ox 11415   Oklahoma Il y, OK 731J6·0415   r'IIONE40 142S·729b    PAX 4051 25-7295   www.ho\c la.nd&cc:urity.ok..Ilov




             The State of Oklahoma’s Management of State Homeland Security Program and 

          Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                                    Page 17

Appendix B
Management Comments to the Draft Report




        Mr. Lateef A. Abassi
        Regis Associates, P.C.
        September 14, 2011
        Page 2



        In addition we will amend our regular site monitoring procedures to prompt OKOHS monitoring
        personnel to explore and document ways in which grant funded expenditures have improved individual
        sub-awardee's ability to accomplish the goals associated with the particular grant. We will also continue
        to encourage our Program Managers to stay actively engaged (via telephone, association/ and or Regional
        Council conferences/meetings and site visits) with stakeholders throughout the State and to better
        document ongoing progress and lessons learn ed. We plan to refine our Project Charters to provide a
        written framework for Program Managers to document the status of major projects and to communicate
        progress with senior management on a regular basis.

        We acknowledge that prior to your tield work some of the equipment purchased with OKOHSIDHS
        funding was not appropriately marked as having been purchased with FEMAlDepartment of Homeland
        Security funding. During the course ofyollr field work, we took steps to remind our sl.lb-awardees of the
        need to place stickers on DHS funded equipment where practical and we provided attachable stickers to
        our sub-awardees as needed. Verification of markings is now a routine part of our on-site monitoring
        process and we understand that you are satisfied that this shortcoming has been corrected.

        In closing, I would like to commend your staff for their professionalism during this audit, and I hope they
        were treated profess ionally by the Oklahoma Office of Homeland Security. Please do not hesitate to
        contact me if any fwiher information is needed.

        Sincerely,


       "\,,~~
        Kim Edd Caliel'
        Director




          The State of Oklahoma’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                         Page 18

Appendix C
Organization Chart


                         Oklahoma Office of Homeland Security




           The State of Oklahoma’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 19
Appendix D
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




           The State of Oklahoma’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 20
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
